                                                               E-IN-DMO-0099-2002-A


             United States Department of the Interior
                            Office of Inspector General
                                  Washington, D.C. 20240

                                                           April 23, 2003


Memorandum

To:       Assistant Secretary – Policy, Management and Budget


From:     Roger La Rouche
          Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the Departmental Offices’
         Fiscal Year 2002 Financial Statements (No. 2003-I-0046)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Departmental Offices’ financial statements as of September 30, 2002 and for
the year then ended. In conjunction with its audit, KPMG noted certain matters involving
internal control and other operational matters that should be brought to management’s
attention. These matters, which are discussed in the attached letter, are in addition to
those reported in KPMG’s audit report on the Departmental Offices’ financial statements
(Report No. 2003-I-0041) and do not constitute reportable conditions as defined by the
American Institute of Certified Public Accountants.

       The recommendations will be referred for tracking of implementation, therefore
your response should be provided directly to the Office of Financial Management. If you
have any questions regarding KPMG’s letter, please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.




Attachment

cc:     Audit Liaison Officer, Departmental Offices
        Director, Office of Financial Management
                                                                               ATTACHMENT



                   2001 M Street, NW
                   Washington, DC 20036




January 17, 2003


Assistant Secretary for Policy, Management and Budget and Inspector General
United States Department of the Interior:

Ladies and Gentlemen:

We have audited the financial statements of Departmental Offices as of and for the year ended September
30, 2002, and have issued our report thereon, dated January 17, 2003. In planning and performing our
audit of the financial statements of Departmental Offices, we considered internal controls over financial
reporting in order to determine our audit procedures for the purpose of expressing our opinion on the
financial statements and not to provide assurance on internal controls over financial reporting. We have
not considered internal controls over financial reporting since the date of our report.

During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies and are summarized as follows:

1. Office of Aircraft Services – Property, Plant, and Equipment

    Comment

    We noted that the Office of Aircraft Services (OAS), a component of Departmental Offices, did not
    enter the following transactions into the OAS accounting system on a timely basis:

    •   Asset of $617,723 was placed in service on 4/19/02, but not posted until 6/15/02
    •   Asset of $25,857 was placed in service on 1/16/02, but not posted until 6/18/02
    •   Asset of $25,025 was placed in service on 9/13/01, but not posted until fiscal year 2002

    Recommendation

    We recommend that Departmental Offices implement procedures to ensure that transactions are
    recorded in a timely manner. This process should include training of personnel on the timely
    recording of Property, Plant, and Equipment (PP&E) and regular communication with remote office
    locations that acquire PP&E.




                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                a member of KPMG International, a Swiss association.
2. Office of Aircraft Services – Segregation of Duties

   Comment

   From October 1, 2001 through May 17, 2002, the OAS’s Chief Financial Officer and Financial
   Analyst both had access to enter transactions into the OAS aircraft and finance systems; were
   authorized to certify payments in the ECS system; and were involved in the reconciliation of the
   general ledger to Treasury’s records.

   Recommendation

   We recommend that Departmental Offices segregate responsibilities for entering transactions,
   authorizing payments, and reconciling the general ledger to Treasury’s records.

3. Office of Aircraft Services – Standard General Ledger

   Comment

   Due to system limitations, OAS purges the general ledger and re-enters certain budgetary transactions
   based on current status (e.g. an order is re-entered with a debit to 4610, 4801, or 4802 depending on
   whether it is outstanding, accrued, or paid).

   Recommendation

   We recommend that OAS enhance the accounting system to eliminate the need for duplicate
   transaction entry and ensure compliance with the U.S. Government Standard General Ledger at the
   transaction level.

4. Recording of Stewardship Assets

   Comment

   The Central Utah Project Completion Act and the Utah Reclamation Mitigation and Conservation
   Commission, which are components of Departmental Offices, do not consistently use general ledger
   accounts 690E and 690D to segregate investments in non-federal physical property and stewardship
   assets. These accounts facilitate reporting of Required Supplemental Stewardship Information.

   Recommendation

   We recommend that Departmental Offices implement a process and posting models to record
   investments in non-federal physical property and stewardship assets using the appropriate general
   ledger accounts.




                                                  2
5. Controls over Employee Benefit Records

   Comment

   During our testing of payroll and related employee benefits data, we were unable to obtain the Life
   insurance form SF-2817 from the official personnel file (OPF) for a selected employee who elected
   optional life insurance in addition to the basic coverage.

   Recommendation
   We recommend that Departmental Offices implement procedures to ensure that all required forms are
   maintained in the employee’s OPF.

6. Debt Collection Act

   Comment

   During our testing for compliance with the Debt Collection Act, we noted seven instances where
   Departmental Offices did not apply the proper interest and penalties on non-Federal debts resulting in
   lost interest and penalties of $42. In addition, Departmental Offices did not submit the Debt
   Certification for Referral to Treasury after 180 days outstanding for the same seven items totaling
   $403.

   Recommendation

   We recommend that Departmental Offices develop and implement adequate policies and procedures to
   ensure that interest and penalties are properly applied and debts are properly referred to Treasury.

7. Prompt Pay Act

   Comment

   Departmental Offices did not use current Treasury interest rates to calculate interest on late payments
   in accordance with the Prompt Payment Act for part of fiscal year 2002. We noted ten out of 32
   invoices tested were paid using an interest rate higher than the actual rate. This resulted in an over-
   payment of interest totaling $148.

   Recommendation

   We recommend that Departmental Offices establish a process to ensure interest rates are updated in
   the accounting systems in a timely manner.




                                                   3
Our audit procedures were designed primarily to enable us to form an opinion on the financial statements,
and therefore may not bring to light all weaknesses in policies and procedures that may exist. We aim,
however, to use our knowledge of Departmental Offices gained during our work to provide comments and
recommendations that we hope will be useful to you. Should you have any questions concerning the
matters presented herein, we would be pleased to discuss them with you at any time.

This report is intended solely for the information and use of the U.S. Department of the Interior’s
management and the U.S. Department of the Interior’s Office of Inspector General, and is not intended to
be and should not be used by anyone other than these specified parties.


Very truly yours,




                                                   4
